HHS/OIG-Audit--"Review of the Type of Costs Incurred Under AIDS Cooperative Agreements Awarded to the Florida Department of Health and Rehabilitative Services, (A-04-91-04027)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Type of Costs Incurred Under AIDS Cooperative Agreements Awarded to the Florida Department of Health
and Rehabilitative Services," (A-04-91-04027)
March 31, 1993
Complete
Text of Report is available in PDF format (1.37 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the percentage of AIDS grant funds used for administrative expenses may have been too high
at two grantees in Florida. We found that about $4.3 million of $10.7 million (40 percent) was used for administrative
costs. Precedents exist for limiting the percentage of funds which can be expended for administrative costs. Had this been
done for these grants, a significant amount of funds would have been available for providing direct services to AIDS patients.